<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


.                                     
                          [H.A.S.C. No. 116-1]

             ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            JANUARY 24, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-334                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
             Zach Steacy, Director, Legislative Operations
             
             
             
             ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 24, 2019.
    The committee met, pursuant to call, at 11:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I would like to call the meeting to order and 
to ask Members to please take their seats.
    Thank you. Welcome to the organizational meeting for the 
House Armed Services Committee. I know we are a little light on 
Members. Unfortunately, with our ever-changing schedule, there 
are other committees that are picking their subcommittees, in 
particular, T&I [House Transportation and Infrastructure 
Committee] and Education and Labor, I believe. So we won't have 
as many Members here as we would like, but they are coming and 
going, and even if they are not here, I will introduce them.
    With that, I would just like to make a couple quick opening 
remarks before yielding to the ranking member for the same 
purpose. First of all, welcome, returning Members, returning 
staff, as well as new members and new staff. This is a great 
committee.
    And I want to start by saying it has been a great pleasure 
working with Chairman Thornberry for--well, for as long as we 
have been in Congress, as long as I have been in Congress 
anyway, 22 years, in particular, on this committee. But in 
particular, when he was chairman he did a fantastic job of 
running this committee and being inclusive with everybody on 
both sides of the aisle, which is the model that we want to 
follow. I appreciate that, and I look forward to us continuing 
to work together.
    And the best way to sum that up and sum up what our 
committee does, you know, people have asked, you know, what are 
my priorities. I am sure, as members of the committee, you have 
been asked what are your priorities, and there are 1,000 things 
that we are going to work on: district specific issues, 
national issues. That is one of the great things about this 
committee: We have an endless number of very important, very 
interesting, very complicated issues to work on.
    But at the end of the day my priority for the committee are 
two things: number one, to maintain the bipartisan tradition of 
this committee. We are the most bipartisan committee in 
Congress. Now, this joke is getting old at this point, but I 
then say, that is a very low bar to jump over these days. I 
understand that.
    But our tradition goes back before this current situation 
and a whole bunch of others. We work together in a bipartisan 
way because we understand how important our committee is. It is 
our job to provide the law and the background so the men and 
women who put their lives on the line for our country can have 
the tools and support that they need to do that job. We 
understand how important that is, and we understand that that 
trumps everything else that we are doing.
    And during my time on the committee what I have noticed is 
the way we maintain that bipartisan tradition is through 
leadership. Every chairman and every ranking member that we 
have had in this position that I have been privileged to work 
with--you know, and there have been a wide variety of them; you 
can see some of them up on the walls behind us here--have made 
that a priority, to work across the aisle, to make sure that 
the chair and the ranking member work together and that all 
Members work together.
    So I hope everybody in this committee will understand the 
importance of that and maintain that tradition. And, again, 
Chairman Thornberry did an outstanding job of that, was a 
terrific partner to work with. I worked with Buck McKeon before 
that. He had a similar approach, and that is a huge priority 
for me. So, staff, members, everybody, that is what we are 
working on.
    And then the second thing is, we produce a bill every 
single year, 58 straight years, I believe, only committee in 
Congress to do that. In fact, over the course of the last 8 
years, as the appropriations process has broken down around us, 
we have some years been literally the only committee that 
produced a product.
    And I want everyone to know that, don't be sort of drawn in 
by the 58 years thing. Every single year that I have been here 
there has been at least four or five times during the process 
when we have said we are just not going to make it, we can't 
get past this. There have been a bunch of different times. I 
think the latest, probably, I believe, December 16 was the 
latest that we actually passed the bill. So it is not easy, but 
it is enormously important that we get it done. All the other 
issues flow into those two things.
    So the last thing I will say is, this is an outstanding 
committee. You know, I have worked with all the returning 
members. I have gotten a chance to get to know most of the new 
members. This is an incredibly talented group of people, and I 
am privileged to be part of this effort. I think we have got a 
great team. I think we can do great work. And I am absolutely 
confident that we will.
    With that, I will yield to the ranking member for any 
comments he has.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And I will say, first, I appreciate very much the comments 
that you just made; and secondly, congratulations on becoming 
chairman of this committee. As you referenced, you have been on 
this committee 22 years. You have been the ranking member, I 
think, the last 8. You have been either the chairman or ranking 
member of a variety of subcommittees; in other words, as the 
commercial used to say, you got it the old-fashioned way; you 
earned it.
    And I have no doubt that you will be perfectly in line with 
the portraits who are around us in maintaining a bipartisan 
tradition but with the priority not just to maintain it for its 
own sake but to--but for the reason that the men and women who 
are on the front lines deserve it and the national security of 
the United States deserves it. So congratulations on being 
here. I look forward as well to our work together.
    I just want to highlight some of the points you just made. 
I think it is a source of pride for members who have served on 
this committee that it is such a--I won't even say bipartisan 
but I would say nonpartisan committee. And I thought one way 
for me to demonstrate that was just to bore you with a few 
numbers from last year.
    When we marked up last year's national defense 
authorization bill, there were 276 amendments adopted, 132 of 
those were offered by Democrats, 144 by Republicans. The bill 
passed out of committee by a vote of 60 to 1.
    We go to the floor, the Rules Committee made 271 amendments 
in order, 155 Democrats, 116 Republicans. It passed the floor 
351 to 66. When we came back from conference with the Senate it 
passed the House 359 to 54. It passed the Senate 87 to 10 and 
was signed into law on August 13th.
    We are not going to make August the 13th this year. We had 
some things working in our advantage last year with the 2-year 
budget deal, but my point is there are no statistics that you 
can cite that shows anything other than this is a nonpartisan 
committee. And the advantage is, whether you are a freshman or 
a senior Member, whether you are a minority or majority, you 
can meaningfully contribute to something that will become law. 
And that is just not true in other committees. And as you point 
out, the purpose is not just for its own sake; it is because we 
have a responsibility to do something bigger.
    You outlined your priorities, which I wholeheartedly 
endorse. I would just add, from my standpoint, substantively, I 
want to do everything we can to make sure we don't slip 
backwards on the progress that we have started to make in 
rebuilding and repairing the military. The worst thing we can 
do is send somebody out there on a mission and not give them 
the best equipment, the best training, the best support that 
that man or woman deserves and that we can provide.
    So I don't want to slip backwards. And as you know, I also 
want to continue to work to make the Pentagon work better. Part 
of that is efficiency but a lot of it is incorporating new 
technologies that are just essential to defending the country. 
Again, all of this has been completely nonpartisan in the past. 
I am sure it will be in the future. We look forward to working 
with you.
    I yield back.
    The Chairman. Thank you, Mac.
    And just, yeah, echoing a couple of those remarks, I also 
want to thank you for your work on acquisition and procurement 
reform. The efforts to make sure that we get the most out of 
the money we spend at the Pentagon are enormously important, 
and there is still a lot of work to do on that.
    But in addition to being the chairman, no member of this 
committee has done more work on that issue than Mr. Thornberry. 
So I appreciate his leadership, continued efforts, and someday 
we will get that audit. So--and I am not just kidding. That is 
actually an enormously important thing to work on to make sure 
we get there.
    And the second thing is, while, you know, Mac and I have 
had disagreements in the past about how much money to spend and 
where it should go and all of that, as we have throughout both 
sides of the aisle, the point to be made is the most important 
one. Whatever we decide the mission should be, whatever we say, 
okay, this is what our Armed Forces need to be ready to do, it 
is our responsibility to make sure that they are trained and 
equipped so that they can do it.
    To me, the worst possible outcome is what Mac just 
described, either we don't provide them the money or we decide, 
well, we want to do everything, so they are underprepared for 
what it is that we are asking them to do.
    We need to decide what the missions are and make sure that 
we can fund it. You know, which is, you know, the prelude to 
some arguments that we have had in the past and will probably 
have in the future, but that baseline premise that we have to 
make sure that we provide for the missions that we are asking 
to be accomplished we are 100 percent in agreement on.
    So, yeah, I didn't read my script. I was supposed to tell 
you the three things that we had to do today. That was one, so 
we are done with that.
    Now I am going to introduce the new members and then we 
have got some rules stuff. So I am now going to do something 
that I don't think in the entire 22 years that I have been on 
the committee I have done. I am going to read word for word 
something that my staff gave me. I don't know if they are 
excited about that or a little bit nervous.
    But we have on our side of the aisle 16 new Members of 
Congress. Now, normally I like to, you know, get some memory of 
this stuff and be able to authentically just, you know, say 
something about everybody. There is no way on God's green Earth 
I am going to be able to do that with 16 different Members.
    So my staff has helpfully provided me with some background 
on everybody, and I am going to introduce the Members and read 
through that. I know some of them aren't here because of other 
committee assignments probably, although it looks like actually 
most of them are here. But whether you are here or not, I am 
going to introduce you.
    So I will get started and then we will turn it over to Mr. 
Thornberry to do the same. So, first, we have Bill Keating from 
Massachusetts, who is a returning Member of Congress but new to 
the committee. He represents Massachusetts' Ninth District, 
which includes Joint Base Cape Cod along with several naval 
underwater research academic institutions around the area.
    He is the grandson of a Gold Star mother and a former 
district attorney. He joins the committee having previously 
served on the Homeland Security Committee and is the 
presumptive chair of the Europe and Eurasia Subcommittee on 
House Foreign Affairs Committee. Welcome, Bill. Good to have 
you.
    Our second returning Member but new to the committee is 
Filemon Vela. He represents the 34th District of Texas, which 
includes Naval Air Station Kingsville with the Corpus Christi 
Army Depot and Naval Air Station Corpus Christi in the adjacent 
district. Texas 34 is home to the SpaceX South Texas launch 
site in Brownsville.
    Mr. Vela was first elected to Congress in 2012. He is a 
former trial lawyer and the son of one of first Hispanic 
Federal judges. He previously served on the Homeland Security 
Committee, and he continues to serve as a senior member of the 
Agricultural Committee. Welcome.
    And now we have our newly elected Members, beginning with 
Andy Kim, who represents New Jersey's Third District. This 
includes Joint Base McGuire-Dix-Lakehurst, the only tri-service 
base in the country. Joint Base MDL includes units from all 
five armed services branches and directly employs 50,000, 
including 30,000 Active Duty.
    Representative Kim has worked at the U.S. State Department, 
the Pentagon, and has served in Afghanistan as a civilian 
adviser to Generals Petraeus and Allen, and has also served on 
the National Security Council. Welcome.
    Kendra Horn represents the Fifth District of Oklahoma, home 
to the U.S. Coast Guard Institute, the Mike Monroney 
Aeronautical Center, and thousands of civilian and military 
personnel of Tinker Air Force Base. A lawyer by training, she 
left the nonprofit world to bring her experience in the 
aeronautics industry to the U.S. House of Representatives. 
Thank you for joining us.
    Gil Cisneros represents California's 39th District covering 
parts of Los Angeles, Orange and San Bernardino Counties, and 
has numerous aerospace and defense industry companies. 
Representative Cisneros comes from a military family, as both 
his grandfathers served in World War II, his father served in 
the Vietnam war, and he earned his education through a Naval 
Reserve Officer Training Corps scholarship and served as a U.S. 
naval officer for 10 years.
    I will say, we have a good blend of our new Members of 
people who have served in the military, State Department, CIA 
[Central Intelligence Agency], and elsewhere, as well as people 
who are civilians. So I think it is an excellent mix, and we 
are happy to have that breadth of experience.
    Next is Chrissy Houlahan, who represents Pennsylvania's 
Sixth District, which is the western suburbs of Philadelphia 
and the Reading area in Berks County. Chrissy is third-
generation military. She served 3 years on Active Duty in the 
Air Force, followed by 13 years in the active and inactive 
Reserves, ultimately rising to the rank of captain. She also 
brings to the committee training as an engineer and a 
background growing global businesses.
    Jason Crow represents Colorado's Sixth Congressional 
District, which includes Buckley Air Force Base with Fort 
Carson and the Air Force Academy directly south of the 
district. Rep. [Representative] Crow is a former Army Ranger, 
having served in both conventional and special operations units 
during three combat tours in Iraq and Afghanistan.
    Xochitl--and this, by the way, is a big moment I have been 
waiting for is to see if I could successfully not butcher that 
first name. Xochitl Torres Small is from New Mexico's Second 
District, which is home to Holloman Air Force Base and White 
Sands Missile Range, the largest military installation in the 
country.
    With an average of less than 10 people per square mile, New 
Mexico's Second District faces many challenges unique to rural 
communities, and as I understand, it is the fifth largest 
district in the country. That is a lot of ground to cover. I 
was telling her earlier, I could walk out my door and drive to 
any place in my district in about 45 minutes, so I understand 
the challenge that you face there, and I am very happy to have 
my much smaller district. But I am sure you will do an 
excellent job representing it.
    She previously worked as a water attorney and a field 
representative for Senator Udall. Through these roles she 
worked with local governments, farmers, developers, and 
conservationists to protect our water.
    Next is Elissa Slotkin from Michigan's Eighth District, 
which includes Ingham County, home to Michigan's capital and 
Michigan State University; Livingston County; and North Oakland 
County, home to Michigan's Automation Alley. Just outside the 
district is TAACOM, the U.S. Army Tank, Automotive and 
Armaments Command. Representative Slotkin has spent her career 
in government service.
    She joined the CIA after 9/11 and served three tours in 
Iraq alongside the military. Rep. Slotkin has held a series of 
leadership positions at the Department of Defense, including as 
acting Assistant Secretary of Defense for International 
Security Affairs. Welcome.
    Next we have Mikie Sherrill, who represents New Jersey's 
11th District, which includes Picatinny Arsenal, home of the 
Defense Department's Joint Center of Excellence for Armaments 
and Munitions. She graduated from the U.S. Naval Academy and 
spent almost 10 years on Active Duty in the United States Navy 
as a Sea King helicopter pilot and on her last tour served as a 
Russian policy adviser.
    Next, from California we have Katie Hill. She serves the 
Antelope, Simi, and Santa Clarita Valleys, California's 25th 
District. She is the former executive director of People 
Assisting the Homeless, which she grew from a local 
organization to the State's largest provider of homelessness 
services, where she moved thousands of families and veterans 
off the streets and into permanent, affordable homes.
    Next, from Texas' 16th Congressional District, we have 
Veronica Escobar, and this includes Fort Bliss Army Base, 
which, I forget, I think it is like the third or fourth largest 
Army base, one of the largest Army bases in the country. And 
she has previously served in El Paso as a county judge for two 
terms.
    Then back to New Mexico, we have Deb Haaland, who 
represents New Mexico's First District, which includes Kirtland 
Air Force Base, Sandia National Laboratory, and a part of White 
Sands Missile Range. New Mexico is home to three other military 
installations: Cannon Air Force Base, Holloman Air Force Base, 
as well as Los Alamos National Laboratories.
    Her father was a 30-year combat Marine veteran who was 
awarded the Silver Star Medal for saving six lives during 
Vietnam, and he was laid to rest at Arlington National 
Cemetery. Her mother is a Navy veteran who was a Federal 
employee for 25 years in Indian education. She is an enrolled 
member of the Pueblo of Laguna.
    Now we go across the country to Maine to Jared Golden, who 
represents Maine's Second District, which is home to the Bangor 
Air National Guard Base and hundreds of Bath Iron Works 
employees. After the September 11 attacks, Golden enlisted in 
the United States Marine Corps. He served 4 years in the 
military as an infantryman deploying to Afghanistan in 2004 and 
Iraq in 2005 and 2006.
    Staying in the northeast, Lori Trahan from Massachusetts' 
Third District. Fort Devens is in Massachusetts 3 and Hanscom 
Air Force Base abuts the district. Lori is a native of Lowell, 
Massachusetts. She served as chief of staff to former Rep. 
Marty Meehan and later founded a successful consulting firm.
    And believe it or not, we are now down to the last Member. 
From the great State of Virginia, Elaine Luria, who represents 
Virginia's Second District, which is home to eight major 
military installations representing all branches of the Armed 
Forces, including Naval Station Norfolk, the largest naval base 
in the world.
    A 20-year Navy veteran who achieved the rank of commander, 
Rep. Luria joins the committee after six deployments in the 
Middle East and Western Pacific supporting both operations 
Enduring Freedom and Iraqi Freedom.
    A very large group, if we could give them all a collective 
round of applause and welcome them to the committee.
    And with that, I yield to Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I join you in welcoming the new Members on your side of the 
aisle. And Conaway and I are particularly glad to have some 
Texas reinforcements.
    What we lack in quantity of new Members we make up for with 
quality. We have two new Members: First, in his second term, 
Congressman Jack Bergman from the First District of Michigan. 
He served in a Marine uniform for four decades, starting as a 
combat assault pilot in Vietnam and finishing as commanding 
general of the largest force level organization in the Marine 
Corps responsible for roughly 100,000 Marines and sailors. 
Lieutenant General Bergman is the highest-ranking combat 
veteran ever elected to Congress, but he says you still don't 
have to salute him.
    And secondly, new Member of Congress, Representative 
Michael Waltz from the Sixth District of Florida. He is the 
first ever Green Beret elected to Congress, served our country 
on the battlefield including multiple combat tours, and also 
served as a senior national security policy adviser in the 
Pentagon and at the White House under Vice President Cheney. He 
is still serving as a lieutenant colonel in the National Guard, 
and we are very glad to have both of these new Members join our 
ranks.
    The Chairman. And we are being joined by Mr. Brown who is--
we are in the majority now. We are on this side.
    Yeah, actually, when we got in the majority after 10 years 
in the minority, I didn't realize that they flipped the side 
that you sit on just based on that. So welcome, Mr. Brown, the 
vice chairman of the committee, Anthony Brown.
    All right. Now we have some business to take care of, so we 
will get through the script here. I call up Committee 
Resolution No. 1 regarding the committee rules for the 116th 
Congress. The clerk shall read the resolution.
    Ms. Quinn. ``Committee Resolution No. 1. Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for the 116th Congress, which are 
stated in the copy distributed to each Member.''
    The Chairman. The proposed committee rules have been 
developed jointly by Ranking Member Thornberry and made 
available to Members' offices on Monday, January 21.
    Following consultation with Mr. Thornberry, I ask unanimous 
consent that the resolution be considered as read and that the 
resolution be open to amendment at any point.
    Is there objection?
    Without objection, it is so ordered.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. At this time, is there any discussion, or 
are there any questions concerning the committee rules?
    If there is no further discussion, are there any amendments 
to the committee rules?
    We will take that as a no as well.
    There are no amendments.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin, for the purpose of offering a motion regarding 
Committee Resolution No. 1, the committee rules.
    Mr. Langevin. Mr. Chairman, I move to adopt Committee 
Resolution No. 1 concerning the committee rules.
    The Chairman. The question now occurs on the motion of the 
gentleman from Rhode Island, Mr. Langevin.
    So many as are in favor say aye.
    Those opposed.
    A quorum being present, the ayes have it, and the motion is 
adopted. And without objection, the motion to consider is laid 
upon the table.
    The next order of business is Committee Resolution No. 2, 
unsurprisingly, I suppose, regarding the committee's security 
procedures for the 116th Congress. I call up Committee 
Resolution No. 2. The clerk shall read the resolution.
    Ms. Quinn. ``Committee Resolution No. 2. Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee security procedures for the 116th Congress, 
a copy of which has been distributed to each Member.''
    The Chairman. The security procedures were coordinated 
again with Mr. Thornberry and were made available to Members' 
offices on Monday, January 21.
    Following consultation with Mr. Thornberry, I ask unanimous 
consent that the resolution be considered as read and the 
resolution be open to amendment at any point.
    Is there any objection?
    Without objection, it is so ordered.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. At this time, if there are--is there any 
discussion? Are there any questions concerning the security 
procedures?
    If there is no further discussion, are there any amendments 
to the security procedures?
    There are no amendments.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin, for the purpose of offering a motion regarding 
Committee Resolution No. 2, the security procedures for the 
116th Congress.
    Mr. Langevin. Mr. Chairman, I move to adopt Committee 
Resolution No. 2, the security procedures for the 116th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Rhode Island, Mr. Langevin.
    So many as are in favor will say aye.
    Those opposed.
    A quorum being present, the ayes have it, and the motion is 
adopted. And without objection, a motion to reconsider is laid 
upon the table.
    And I--oh, I thought we were done. There is actually a 
Committee Resolution No. 3. On to the final order of business. 
I call up Committee Resolution No. 3, appointing committee 
staff for the 116th Congress. That is actually kind of 
important. The clerk shall read the resolution.
    Ms. Quinn. ``Committee Resolution No. 3. Resolved, That the 
persons listed on the sheet distributed to the Members, and 
such other personnel as may be required by the committee within 
the limits and terms authorized under the Rules of the House of 
Representatives, are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 116th Congress, it being understood that according to the 
provisions of law, the Chairman will fix the basic salary per 
annum.''
    The Chairman. As many of you know, our committee is unique 
in that the committee staff is a combined staff. The committee 
staff is here to provide advice and counsel to all of you, 
Democratic and Republican Members alike. Please feel free to 
avail yourself of their services. They are a talented group of 
professionals.
    And this point actually bears emphasis. The single greatest 
asset that we have on this committee are these people you see 
lined up around us. We have an unbelievably talented staff that 
are incredibly important to the work we do. Please take 
advantage of that.
    Whatever the issue is you are working on, these people can 
help you. They do an outstanding job for us. In fact, I am 
going to ask you to give our staff a round of applause. They 
work incredibly long hours and do an outstanding job, so 
appreciate having them. Look forward to working with them, as 
always.
    A copy of the committee staff in the 116th Congress was 
prepared in consultation with the minority and made available 
to Members' offices earlier this week. Following consultation 
with Mr. Thornberry, I ask unanimous consent that the 
resolution be considered as read.
    Is there objection?
    Without objection, it is so ordered.
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. At this time, is there any discussion, or 
are there any questions concerning the committee staff?
    Mr. Thornberry. Mr. Chairman.
    The Chairman. Yes, Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I was going to make a point 
that you made but I do want to emphasize it. This is another 
way this committee is different from all other committees. Now, 
you see some of these ladies and gentlemen on this side and 
some on this side, but we have a unified staff, which means any 
member can go to any member of the staff and they will help 
with whatever issue you want to talk to them about. And that 
just doesn't--and they have different expertise.
    And so I also encourage all members to take advantage of 
that unique aspect of this committee, which also helps us 
maintain the strong bipartisan tradition here.
    Thank you. I yield back.
    The Chairman. Any further discussion?
    If there is no further discussion, the Chair now recognizes 
the gentleman from Rhode Island, Mr. Langevin, for the purpose 
of offering a motion regarding Committee Resolution No. 3, 
appointing the committee staff for the 116th Congress.
    Mr. Langevin. Mr. Chairman, I move to adopt Committee 
Resolution No. 3 regarding committee staffing for the 116th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Rhode Island, Mr. Langevin.
    So many as are in favor will say aye.
    Those opposed, no.
    A quorum being present, the ayes have it, and the motion is 
adopted. And without objection a motion to reconsider is laid 
upon the table.
    Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the action of the 
committee in adopting Committee Resolutions No. 1, 2, and 3.
    Before we adjourn, there is apparently a brief 
administrative matter. Oh, yeah. Okay. We have a 5-minute rule 
in this committee. Basically when we have hearings, when we do 
markups, you all have 5 minutes to speak. We are going to try 
to strictly adhere to that. The only exception to that is, 
well, me and the ranking member, who--we are, by tradition, not 
on the clock.
    And, you know, it is a big committee, so there are a lot of 
members to get to. I always like to emphasize that just because 
you have 5 minutes you don't actually have to take all 5 
minutes. Now, I understand you have got important things to do, 
and if you do and it is correct and if you need to, that is 
fine. But it is not required.
    And the other thing is, I sort of have et al. attention 
deficit disorder to a certain degree, not during hearings but 
in markups. I am going to try to move things along as quickly 
as possible, but also I want a robust debate. So I find it 
better, if you have got something to say, say it. If you can 
say it more briefly, that helps more people be able to say 
their piece.
    So I am going to try to move that along as quickly as 
possible. But I understand, as members of this committee, you 
have districts to serve, you have issues you are pressing. We 
have the witnesses. We are going to try to get to all of you.
    I will warn some of you down further that we consistently 
have witnesses, particularly when they are from the Pentagon, 
who have hard stops. And, you know, we don't always get to 
everybody. You will figure that out as you go, but we will try. 
We will do our level best.
    I believe--I don't know if this is formally in the rules or 
if we do this, and the way it works, that I was unaware of at 
first, is you are in line when the gavel falls. It is by 
seniority for the most part, but if you are not here when the 
committee starts, you lose your place in line. Whoever is here, 
they are in line, and then as you come in you then go to the 
end of the line.
    And I will say something that every member of this 
committee learns after about the first day, you can show up for 
the gavel falling, leave, and then monitor it and come back 
when you ask your question. I don't necessarily recommend that, 
depending on what you have, but I want to make sure that 
everyone is aware that that is the rule. So if you are sitting 
there waiting to be called on and we call on somebody past you 
and you go, why? That is why.
    I think that is everything. Mac, do you have anything? 
Okay. All right. I just did that informally because my next 
line says, ``Let me recognize Mr. Thornberry in case he has any 
closing comments or wishes to add to this discussion.''
    Mr. Thornberry. I am good.
    The Chairman. All right. Cool.
    If there is no further business, the committee stands 
adjourned subject to the call of the Chair, and I look forward 
to working with all of you.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]

                                  [all]
</pre></body></html>
